                                   Report Template Update: 04-03-08




Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CMS’S PROCESSING OF
   COMPLAINTS RECEIVED
THROUGH THE 1-800-HHS-TIPS
         HOTLINE




                    Daniel R. Levinson
                     Inspector General

                       March 2011
                     OEI-07-09-00020
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T     I O N
    E X E C U T I V E S SU UM MM MA AR RY Y


                    OBJECTIVE
                    To assess the Centers for Medicare & Medicaid Services’ (CMS)
                    processing of complaints received through the 1-800-HHS-TIPS hotline.


                    BACKGROUND
                    Many Offices of Inspector General (OIG) operate hotlines to respond to
                    citizen and employee allegations of fraud, waste, or abuse in Federal
                    programs. The Department of Health & Human Services (HHS) OIG
                    maintains such a hotline (1-800-HHS-TIPS), for individuals to provide
                    information that may assist in combating fraud, waste, or abuse in HHS
                    programs (e.g., Medicare, Medicaid, child support enforcement, and
                    Head Start). Individuals may call the hotline or send their written
                    concerns by email, postal mail, or fax.

                    We obtained a copy of the hotline complaint data in CMS’s information
                    system as of March 2009. We identified 1,427 complaints that OIG
                    forwarded to CMS in the first 6 months of 2008. From these, we
                    selected a simple random sample of 120 complaints. We telephoned
                    staff at each contractor assigned to the sampled complaints to inquire
                    about what initial research the contractor performed to validate each
                    complaint; how and when the contractor contacted the complainant; and
                    what outcomes (e.g., recouping an overpayment from the provider)
                    resulted from the contractor’s actions on the complaint. We also
                    conducted structured telephone interviews with contractor staff, CMS
                    central office staff, and CMS regional office staff about the complaint
                    process. Finally, to check the status of complaints 1 year after we
                    initially received the hotline complaint data, in March 2010 we obtained
                    a copy of the hotline complaint data in CMS’s information system.


                    FINDINGS
                    At least 1 year after receiving complaints through the
                    1-800-HHS-TIPS hotline, CMS had resolved the majority of them,
                    but 12 percent remained unresolved. CMS has no requirements
                    regarding the length of time within which contractors should resolve
                    complaints. Our period of review allowed at least 1 year to elapse after
                    CMS received the complaints from OIG. As of March 2010, interviews
                    with contractors and a review of data in CMS’s information system
                    confirmed that CMS resolved or closed administratively 88 percent of
                    complaints received during the first 6 months of 2008. (Complaints are

 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                      i
                                                                            Report Template Update: 04-03-08




E X E C U T I V E              S U         M M A R Y


                   closed administratively if they are below the dollar-amount threshold
                   required for research or if the information in the complaint is
                   insufficient to conduct further work.) Overall, 32 percent of complaints
                   were confirmed as services billed in error. Eleven percent of complaints
                   involved allegations of fraud. Contractors closed 11 percent of
                   complaints administratively. For another 32 percent, contractors
                   researched complaints and found no problems. Two percent of
                   complaints were referred to another agency. CMS had not resolved
                   12 percent of the complaints it received during our period of review.
                   Long timeframes and inefficient processes delay starting work on
                   complaints. For 58 percent of complaints, contractors reported starting
                   work within 30 days of CMS’s receipt of the complaints from OIG, but
                   for 29 percent of complaints, contractors took more than 4 months to
                   start work. Included in the latter group are complaints that contractors
                   were unaware had been assigned to them (22 percent of all complaints).
                   Only following our inquiry did the contractors begin work on these
                   complaints. CMS and contractor staff described processes that
                   contribute to delays in transmitting complaints from the CMS central
                   office to contractor staff. Such delays add to the time that it takes to
                   resolve complaints.
                   Lack of guidance and an inadequate information system hinder
                   complaint processing. Some CMS and contractor staff reported the
                   need for written guidance defining their roles and responsibilities for
                   processing hotline complaints. Although CMS provides some guidance
                   to contractors, some CMS and contractor staff stated that guidance is
                   lacking for processing complaints from receipt through resolution. No
                   written procedures for processing complaints exist at the level of the
                   CMS central office; however, staff from two CMS regional offices
                   reported developing standard operating procedures for handling
                   complaints. Most contractors have developed internal policies and
                   procedures for handling complaints; however, some contractors desired
                   guidance from CMS. In addition, the status of complaints cannot be
                   tracked in CMS’s information system.




 OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     ii
                                                                            Report Template Update: 04-03-08




E X E C U T I V E              S U         M M A R Y




                   RECOMMENDATIONS
                   The 1-800-HHS-TIPS hotline is widely publicized as an avenue that
                   individuals can use to provide information that may assist in combating
                   fraud, waste, or abuse in Federal health care programs. While the extent
                   of health care fraud is unknown, it is estimated to be in the billions of
                   dollars each year. HHS emphasizes that Medicare beneficiaries are the
                   front line of defense in detecting Medicare fraud because they have
                   firsthand knowledge of the health care services they have received.
                   When researched and resolved, hotline complaints can lead to
                   recovering overpayments and identifying fraud. Therefore, it is
                   important for CMS to have a clear and consistent approach to process
                   hotline complaints.
                   We recommend that CMS:
                   Issue written guidance for processing hotline complaints. CMS should
                   issue guidance defining the roles and responsibilities of CMS and
                   contractor staff and timeframes for assigning, researching, and resolving
                   complaints.

                   Upgrade its information system for processing hotline complaints. CMS
                   should ensure that its information system tracks user activity on each
                   complaint and alerts CMS when a complaint has not been assigned to a
                   contractor.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on the draft report, CMS concurred with our
                   recommendations. In response to our first recommendation, CMS
                   stated that it will create written guidance that defines the specific roles
                   and responsibilities for CMS and its contractor staff to achieve greater
                   clarity in administration of its database (i.e., its information system).
                   Where they are not already established, CMS will establish timeframes
                   for assigning, researching, and resolving complaints. CMS stated that
                   it is revising its national contractor list to include contact names and
                   contract numbers associated with the contractors. In response to our
                   second recommendation, CMS stated that it is upgrading and updating
                   its database with the following features: auditing mechanisms to track
                   user activity, contractor assignments, and status of complaints; and the
                   capacity to alert CMS when complaints have not been assigned. CMS

 OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    iii
                                                                            Report Template Update: 04-03-08




E X E C U T I V E              S U         M M A R Y


                   stated that it will work with OIG to establish an electronic method to
                   deliver hardcopy evidence received from complainants concurrently with
                   the electronic complaint.




 OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     iv
                                                                               Report Template Update: 04-03-08




   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 7
                   At least 1 year after receiving complaints through the
                   1-800-HHS-TIPS hotline, CMS had resolved the majority of
                   them, but 12 percent remained unresolved . . . . . . . . . . . . . . . . . . . 7

                   Long timeframes and inefficient processes delay starting work
                   on complaints . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   Lack of guidance and an inadequate information system hinder
                   complaint processing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   Agency Comments and Office of Inspector General Response . . . 16



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   A: Flowchart of Processing of Complaints Received Through
                      the 1-800-HHS-TIPS Hotline and Referred
                      to the Centers for Medicare & Medicaid Services . . . . . . . . . . 17

                   B: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 18

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                                                                           Report Template Update: 04-03-08




   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess the Centers for Medicare & Medicaid Services’ (CMS)
                  processing of complaints received through the 1-800-HHS-TIPS hotline.


                  BACKGROUND
                  Many Offices of Inspectors General (OIG) operate hotlines to respond to
                  citizen and employee allegations of fraud, waste, or abuse in Federal
                  programs. The Department of Health & Human Services (HHS) OIG
                  maintains such a hotline (1-800-HHS-TIPS), which individuals can use
                  to provide information that may assist in combating fraud, waste, or
                  abuse in HHS programs (e.g., Medicare, Medicaid, child support
                  enforcement, and Head Start). Individuals may call the hotline or send
                  their written concerns by email, postal mail, or fax.

                  The availability of the hotline is widely publicized on the Internet and
                  in various publications, such as the CMS Medicare & You handbook
                  distributed annually to Medicare beneficiaries. These media strongly
                  encourage individuals to report suspicious activity, emphasizing that
                  they can help stop fraud in HHS programs. The CMS Web site states
                  that it is in the best interest of beneficiaries and of all citizens to report
                  suspected fraud, as fraud increases health care costs. In addition, HHS
                  emphasizes that Medicare beneficiaries are the front line of defense in
                  detecting Medicare fraud because they have firsthand knowledge of the
                  health care services they have received. Given the hotline’s prominence,
                  it is vital that information reported to the hotline be thoroughly
                  reviewed and appropriately addressed in a timely fashion.
                  Written Procedures and Guidance
                  Three groups process hotline complaints related to CMS programs: OIG
                  hotline staff, CMS central and regional office staff, and contractor staff.
                  OIG has developed two written guidance documents pertaining to the
                  handling of hotline calls: OIG Hotline Program Orientation and OIG
                  Hotline Screening Protocols. The CMS central office has not issued
                  written procedures or guidance for processing hotline complaints.

                  In the absence of written procedures or guidance from CMS, the
                  information in this report regarding CMS’s complaint processing is
                  based primarily on information that OIG obtained through verbal
                  contacts made during this evaluation. For a flowchart of complaint
                  processing as explained to and observed by OIG, see Appendix A.



OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     1
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T     I O N


                    OIG Hotline Complaint Processing
                    In 2008, the OIG hotline received approximately 124,000 telephone calls
                    and 15,000 pieces of written correspondence. However, most contacts to
                    the hotline do not result in complaints logged into the OIG hotline
                    database. Using OIG’s written procedures, customer service
                    representatives (CSR) determine whether an issue rises to the level of a
                    complaint and whether it falls within OIG’s jurisdiction. For issues that
                    fall outside OIG’s jurisdiction or that do not rise to the level of a
                    complaint, CSRs provide individuals contacting the hotline with,
                    whenever possible, another avenue to seek assistance, such as calling
                    their State health and human services agencies or 1-800-MEDICARE.
                    For example, if callers inquire about terminology on a Medicare
                    Summary Notice (MSN), CSRs refer them to 1-800-MEDICARE. If
                    callers have complaints involving Medicaid eligibility, CSRs refer the
                    callers to State Medicaid agencies. In contrast, if a caller alleges that a
                    Medicare beneficiary was billed for services not received, the CSR logs a
                    complaint.

                    When CSRs determine that a written or telephone contact rises to the
                    level of a complaint, they enter information—including beneficiary
                    contact information, provider contact information, and a summary of
                    the complaint—into the OIG hotline database. The database
                    automatically assigns a number to identify the complaint. When taking
                    telephone complaints, CSRs do not conduct detailed inquiries with
                    callers or call complainants back for followup. CSRs also do not update
                    complainants on the disposition of individual complaints.
                    Forwarding complaints for resolution. In 2008, hotline calls and
                    correspondence resulted in approximately 6,200 complaints. OIG
                    hotline staff forward complaints to either an OIG field office or the
                    appropriate HHS staff division or operating division (e.g., CMS) or other
                    Federal agency for resolution. OIG forwarded approximately
                    2,400 complaints to field offices for followup, forwarded more than
                    3,000 complaints to CMS, and distributed the balance of the complaints
                    among other HHS operating divisions and other Federal agencies.

                    An OIG analyst reviews the CSR’s data entry for quality control and
                    prints a cover sheet that includes the complaint number, beneficiary
                    and provider contact information, and a summary of the complaint. If
                    any hardcopy documents (e.g., letters or MSNs) accompany the
                    complaint, the analyst attaches them to the cover sheet. OIG staff
                    package the cover sheets and documents and mail them in batches to


 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     2
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T      I O N


                    CMS. OIG also sends an electronic file containing complaint
                    information to an information technology (IT) staff member at the CMS
                    central office.
                    CMS Complaint Processing
                    Staff in CMS’s central and regional offices, as well as staff at Medicare
                    claims processing contractors (hereinafter referred to as claims
                    processing contractors), process complaints referred to CMS by OIG.
                    CMS staff and claims processing contractors use an information system
                    (a Microsoft Access database) to assign, research, and resolve OIG-
                    referred complaints. The database includes each complaint’s unique
                    identifier, date of intake by OIG, date of entry into CMS’s information
                    system, date of the complaint’s assignment to a CMS regional office and
                    to a claims processing contractor, closure date, and resolution code (if
                    applicable).

                    Assigning complaints. An IT staff member at the CMS central office
                    receives the electronic file from the OIG hotline and uploads it to the
                    CMS information system. Using the provider address information in
                    the complaint, the information system electronically assigns the
                    complaint to the appropriate CMS regional office. 1
                    When a batch of new complaints is pending in the database, an IT staff
                    member concurrently sends an electronic notice to alert CMS regional
                    office staff and claims processing contractors to assign complaints.
                    After receiving the notice, claims processing contractors review the
                    complaints. Typically, a claims processing contractor assigns to itself
                    any complaints involving claims that it originally paid, a process known
                    as “self-assigning.” Any complaints not self-assigned in this manner are
                    assigned electronically among the contractors by the CMS regional
                    office staff.

                    Staff in the CMS central office mail the hardcopy complaint packages to
                    the appropriate regional offices. Regional office staff then mail the
                    packages to the appropriate claims processing contractors.

                    Researching and resolving complaints. Claims processing contractors
                    conduct initial research on each complaint to determine such things as
                    the amount paid for the claim and patterns of complaints related to an


                      1 If the complaint is related to durable medical equipment (DME) or the provider address

                    is not available, the complaint is assigned to the CMS regional office that corresponds
                    geographically to the beneficiary address.



 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                        3
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T        I O N


                    individual provider. CMS requires claims processing contractors to
                    research complaints for services with a claim paid amount of $100 or
                    greater. Complaints for services of less than $100 must be retained and
                    tracked for 1 year. If a claims processing contractor receives three
                    complaints on the same provider within 1 year, the contractor is
                    required to conduct an in-depth review of all related complaints. 2
                    CMS directs claims processing contractors to, within certain
                    timeframes, (1) review complaint documentation and (2) determine
                    whether fraud and/or abuse is suspected. 3 If claims processing
                    contractors suspect fraud and/or abuse, they must forward the
                    complaint to the Program Safeguard Contractor or Zone Program
                    Integrity Contractor (hereinafter referred to as program integrity
                    contractors) within 45 business days of receipt of the complaint or
                    within 30 business days of receiving medical records, whichever is
                    later. 4
                    To resolve complaints, claims processing contractors use a variety of
                    research techniques, such as calling the beneficiary or provider and
                    reviewing the claims history. 5 Although claims processing contractors
                    may begin working on complaints as soon as they are electronically
                    assigned, any hardcopy documents associated with a complaint may not
                    be available for several weeks because of processing and mailing time.
                    CMS does not specify a timeframe within which contractors must
                    resolve complaints.

                    Updating complaint status. When a complaint is resolved, claims
                    processing contractors or program integrity contractors update the
                    status of the complaint to “closed” in the CMS database. After this
                    update, no further action is taken on a complaint. Some claims
                    processing and program integrity contractors notify the complainant of
                    the resolution by letter; however, this is not a CMS requirement.
                    Periodically, a CMS IT staff member provides OIG with an electronic
                    file of the complaint information in CMS’s information system. An OIG




                      2   CMS Program Integrity Manual, ch. 4, § 6.2.
                      3   CMS Program Integrity Manual, ch. 4, § 6.2.
                      4 A provider has 45 days to submit medical records to the contractor.
                      5 We use the term “resolve” to indicate that Medicare contractors have completed the
                    actions that they are able to take on complaints. For some complaints, these actions may be
                    limited, especially if the contractors are unable to contact complainants.



 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                       4
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T     I O N


                    staff member uploads this information to the OIG hotline database,
                    thereby updating the status of complaints in OIG’s records.


                    METHODOLOGY
                    Scope
                    This evaluation includes a sample of complaints received through
                    1-800-HHS-TIPS during the first 6 months of 2008 that OIG referred to
                    CMS. This evaluation excludes complaints that OIG forwarded to its
                    field offices, other HHS operating divisions, and other Federal agencies,
                    as well as complaints that CMS received from sources other than
                    1-800-HHS-TIPS. We did not evaluate OIG hotline processes, including
                    its intake process, nor did we evaluate the accuracy of the process of
                    forwarding the complaints.
                    Sample and Data Sources
                    We obtained a copy of the complaint data in CMS’s information system
                    as of March 2009. We identified 1,427 complaints that OIG forwarded
                    to CMS from January 1 to June 30, 2008. From these, we selected a
                    simple random sample of 120 complaints. One year later, in
                    March 2010, we obtained a copy of CMS’s information system to check
                    the status of complaints at the completion of our data collection. Our
                    period of review allowed at least 1 year to elapse after CMS received the
                    complaints.
                    Data Collection
                    Contractor staff. We telephoned staff at each claims processing and
                    program integrity contractor (hereinafter referred to as contractor)
                    assigned to the sampled complaint(s) to inquire about the initial research
                    that the contractor performed on the complaint. We asked contractors
                    how and when they contacted the complainant and what outcomes
                    (e.g., recouping an overpayment from the provider) resulted from the
                    contractors’ actions on complaints. At the same time that we contacted
                    contractors about sampled complaints, we conducted structured telephone
                    interviews with them about the complaint process. We asked about any
                    challenges they had encountered, any circumstances that had impeded
                    timely resolution of complaints, and any suggested solutions. We
                    interviewed staff from 24 contractors (14 claims processing contractors
                    and 10 program integrity contractors).
                    CMS central and regional office staff. Upon completing our interviews with
                    contractors, we conducted structured interviews with CMS central office
                    staff and staff involved in complaint processing from each of the 10 CMS

 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     5
                                                                             Report Template Update: 04-03-08




I N T R O D        U C T      I O N


                    regional offices. 6 We asked CMS staff whether they had encountered any
                    challenges when processing complaints, whether any processing changes
                    were anticipated or underway, and how feasible the solutions that
                    contractors suggested were.
                    Analysis
                    We analyzed contractors’ responses to determine the actions they
                    reported taking to resolve the sampled complaints. To ensure that our
                    analysis included the most up-to-date information, we used the
                    March 2010 version of CMS’s information system to determine the
                    reported status of sampled complaints.
                    Using data from contractor interviews and data in CMS’s information
                    system, we projected the amount of time that elapsed between CMS’s
                    receipt of complaints and contractors’ receipt of complaints.
                    Limitations
                    Using data from CMS’s information system, we contacted the contractor
                    assigned to the sampled complaint. In many instances, the contractor
                    stated that the complaint had been transferred to another contractor,
                    but the contractor to which it had been transferred reported that it had
                    no record of the complaint. For this reason, we could not determine
                    which contractor researched and/or resolved 16 of the complaints
                    (13 percent). Therefore, the information about these 16 complaints is
                    limited to data in CMS’s information system. We note that the
                    timeframe of our fieldwork intersected with the transition from legacy
                    claims processing contractors to Medicare Administrative Contractors
                    (MAC), which may have made it more complex for OIG and CMS to
                    determine which contractor was responsible for a complaint. 7
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation approved by the Council of the Inspectors
                    General on Integrity and Efficiency.



                      6 One CMS regional staff member has responsibility for complaint processing in two

                    regions.
                       7 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of
                    2003 requires that CMS replace fiscal intermediary and carrier contracts (legacy claims
                    processing contractors) with competitively procured contracts that conform to the Federal
                    Acquisition Regulation. P.L. 108-173 § 911, Social Security Act, § 1874A, 42 U.S.C.
                    1395kk-l. CMS was given 6 years (between 2005 and 2011) to complete the transfer of
                    claims processing activities to MACs.



 OEI-07-09-00020    CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                      6
                                                                             Report Template Update: 04-03-08




     F I N D I N G S

                                                         As of March 2010, interviews with
     At least 1 year after receiving complaints
                                                         contractors and a review of data in
through the 1-800-HHS-TIPS hotline, CMS had
                                                         CMS’s information system
 resolved the majority of them, but 12 percent           confirmed that CMS had resolved
                           remained unresolved           or closed administratively
                    88 percent of complaints. However, CMS had not resolved 12 percent of
                    complaints received during the first 6 months of 2008. 8 CMS has no
                    requirements regarding the length of time within which contractors
                    should resolve complaints. Our period of review allowed at least 1 year
                    to elapse after CMS received the complaints.
                    Of the 15 unresolved complaints, 6 were allegations of fraudulent
                    Medicare billing, 6 were complaints of services not rendered, 2 were
                    allegations of unlicensed providers, and 1 was a complaint regarding
                    unsafe conditions at a clinic. One complaint of services not rendered
                    alleged that a hospice provider visited a beneficiary’s home once, but the
                    beneficiary decided not to “sign up with their program.” The beneficiary
                    received a MSN stating that Medicare paid the provider more than
                    $10,000.
                    CMS resolved 88 percent of complaints received during the first 6 months
                    of 2008
                    Overall, 32 percent of complaints were confirmed as services billed in
                    error, such as rental charges that continued after the supplier picked up
                    a hospital bed from the beneficiary’s home. Contractors collected
                    $35,487.60 in overpayments based on these sampled complaints.
                    Eleven percent of complaints involved allegations of fraud, such as
                    medical studies and tests billed using stolen Medicare identification
                    numbers. Outcomes of these complaints included an arrest of a
                    provider, termination of a provider from Medicare, seizure of a
                    provider’s bank account, and a large monetary settlement with a
                    provider. Contractors closed 11 percent of complaints administratively
                    (i.e., the complaint was below the $100 threshold, or the information in
                    the complaint was not sufficient to conduct further work). For another
                    32 percent, contractors researched complaints and found no problems.
                    Two percent of complaints were referred to another agency. Table 1
                    describes the resolutions of sampled complaints as reported by
                    contractors.



                      8 Appendix B presents the point estimates and confidence intervals for all statistics.




  OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                         7
                                                                                      Report Template Update: 04-03-08




F   I N D I N G        S


                      Table 1: Resolutions of Complaints as Reported by Contractors
                                                                                            Number of
                        Description of Resolution                                            Sampled              Percentage of
                                                                                           Complaints               Complaints
                                                                                              (n=120)

                       Allegations researched; no problems found                                      38                   31.7%

                       Service(s) billed in error                                                     38                   31.7%

                       Allegations involved fraud                                                     13                   10.8%

                       Allegations involved services with claim paid amounts of
                       less than $100; complaints closed and retained for                              7                    5.8%
                       provider tracking

                       Information in allegations insufficient; complaints closed                      6                    5.0%
                       with no action

                       Complaints referred to another agency                                           3                    2.5%

                       Subtotal, resolved complaints                                                 105                   87.5%

                       Unresolved                                                                     15                   12.5%

                           Total                                                                     120                  100.0%

                      Source: OIG analysis of contractor interviews and March 2010 version of CMS’s information system, 2010.




                      Complaint research and resolution. Contractors used a variety of
                      methods to research and resolve complaints. For the sampled
                      complaints, this included reviewing medical records or other
                      documentation requested from the provider, reviewing data in the
                      contractor’s internal systems, and interviewing complainants or
                      providers by telephone.

                      Some complainants submitted hardcopy documents (e.g., MSNs,
                      photographs, letters) in support of their allegations. Staff from 17 of the
                      24 contractors reported problems with receiving such documents.
                      Contractors reported seeing notes in the database saying that
                      complainants had submitted hardcopy documents but not receiving the
                      documents for 30 to 90 days after complaint assignment, if at all. Not
                      receiving the documents can impede resolution of a complaint or cause
                      the contractor to request the same documents from the complainant.
                      Staff from 2 of the 24 contractors stated that they received hardcopy
                      documents after a complaint had been closed and that they had to
                      reopen the complaint to evaluate whether the documents changed the
                      resolution. In addition to contractors, staff from all 10 CMS regional


    OEI-07-09-00020   CMS’S PROCESSING    OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                                       8
                                                                               Report Template Update: 04-03-08




F   I N D I N G        S


                      offices reported challenges with handling hardcopy documents,
                      including not receiving them in a timely manner and the potential for
                      them to be lost.

                      Complainant contact. Contractors contacted complainants by telephone
                      or postal mail for 45 complaints. 9 The reasons for contacting
                      complainants included acknowledging that a complaint was received
                      (9 complaints), interviewing complainants to gain information
                      (14 complaints), and notifying complainants of resolution
                      (26 complaints).

                      Not all contractors notify complainants of the outcomes, and CMS does
                      not require them to do so. For a complaint that results in the
                      contractor’s adjustment of the provider claim payment (e.g., a complaint
                      resolved as “service(s) billed in error”), the beneficiary receives a revised
                      MSN indicating the amount of the adjustment. Some contractors
                      consider the revised MSN as a notice to the beneficiary (who may or
                      may not be the complainant) of the complaint’s resolution. In addition,
                      upon receiving a revised MSN, some beneficiaries place another call to
                      the hotline because they misinterpret the information on the revised
                      MSN as meaning that the provider received an additional payment for
                      services.



                                                             For a complaint to be resolved, it
     Long timeframes and inefficient processes
                                                             must be assigned to and
             delay starting work on complaints               acknowledged by the contractor
                                                             that paid the claim for the service
                      in question. Inefficient processes contribute to the delay in assigning
                      complaints to contractors, thereby adding to the time it takes to resolve
                      complaints.
                      For 58 percent of complaints, contractors reported starting work within
                      30 days of CMS’s receipt of the complaints from OIG, but for 29 percent of
                      complaints, contractors took more than 4 months to start work
                      The number of days between the date that a complaint was uploaded to
                      CMS’s information system and the date that the contractor reported
                      starting work on it ranged from 0 (i.e., uploaded and work started on
                      the same day) to 660 days, with an average of 163 days. On average,



                        9 Contractors contacted some complainants for more than one reason.




    OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                     9
                                                                                         Report Template Update: 04-03-08




F   I N D I N G        S


                      more than 5 months elapsed between CMS’s receiving complaints from
                      OIG and contractors’ starting work on them.

                      Table 2 provides an overview of the time it took for contractors to start
                      work on complaints after they were uploaded to CMS’s information
                      system. Contractors took more than 120 days to start work on
                      29.1 percent of complaints. The bulk of the complaints in this
                      category—22 percent of all complaints—are those that contractors were
                      unaware had been assigned to them. Only following our inquiry did the
                      contractors start work on these complaints. During our interview with
                      one contractor, OIG staff assisted the contractor staff in identifying
                      complaints assigned to them by walking them through certain fields in
                      the database. The contractor had been looking only for complaints
                      listed under one region, but the contractor was in fact assigned to
                      complaints from multiple regions.
                      Table 2: Timeframes for Contractors To Start Work on Complaints
                                                                                                Number of
                          Timeframes for Contractors To Start Work on
                                                                                                 Sampled              Percentage of
                          Complaints After Upload to CMS Information
                                                                                               Complaints               Complaints
                          System
                                                                                                  (n=117)

                          Same day–30 days                                                                68                   58.1%

                          31–120 days                                                                     15                   12.8%

                          Greater than 120 days                                                           34                   29.1%

                          Source: OIG analysis of contractor interviews and March 2010 version of CMS’s information system, 2010.




                      CMS’s processes for transmitting complaints to contractors are ad hoc and
                      inefficient
                      The processing, distribution, and assignment of complaints described by
                      CMS and contractors contribute to delays in transmitting complaints
                      from the CMS central office to contractors. Such delays add to the time
                      it takes to resolve complaints.

                            Batch processing—Complaints are not immediately available to
                             contractors when OIG sends the complaints to CMS. An IT staff
                             member at the CMS central office must first upload the batch of
                             complaints to CMS’s information system; this may add days or
                             weeks to the date that the complaints are available to contractors to
                             research and resolve.




    OEI-07-09-00020   CMS’S PROCESSING       OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                                   10
                                                                                Report Template Update: 04-03-08




 F   I N D I N G        S


                           Incomplete distribution list—After uploading the complaints, an IT
                            staff member sends electronic notices to the CMS regional office
                            staff and to the MACs for which the IT staff member has email
                            addresses. However, a CMS IT staff member stated that CMS’s
                            electronic distribution list for sending notice of new complaints does
                            not contain all contractors. Staff from only 5 of 14 claims processing
                            contractors reported that they receive electronic notices of pending
                            complaints. Staff from the remaining nine contractors reported that
                            they check the information system daily or weekly to determine
                            whether new complaints have been assigned to them.

                           Inconsistent timing of complaint assignment—Staff from the
                            10 CMS regional offices electronically assign any remaining
                            complaints that contractors did not self-assign. Staff from two CMS
                            regional offices said that the timing of their assignment of
                            complaints is determined by their workload. Staff at a third
                            regional office said that they assign complaints within 10 days of the
                            electronic notice. Staff from four CMS regional offices indicated that
                            they are unsure how long they should wait (to give contractors a
                            chance to self-assign complaints) between receiving the electronic
                            notice of new complaints and assigning unassigned complaints.



                                                              Long timeframes and inefficient
Lack of guidance and an inadequate information
                                                              processes contribute to delays in
            system hinder complaint processing
                                                              contractors’ starting work on
                                                              complaints, whereas a lack of
                       guidance and an inadequate information system hinder complaint
                       processing. Some CMS and contractor staff reported the need for
                       written guidance defining their roles and responsibilities for processing
                       hotline complaints. Although CMS provides some guidance to
                       contractors, some CMS and contractor staff stated that guidance is
                       lacking for processing complaints from receipt through resolution. In
                       addition, the status of complaints cannot be tracked in CMS’s
                       information system. Because there is little written guidance to inform
                       CMS and contractor staff on their roles and responsibilities for
                       processing complaints and an inadequate information system, CMS and
                       contractor staff use inconsistent processes to handle complaints.




     OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    11
                                                                            Report Template Update: 04-03-08




F I N D I N G S


                   CMS and contractor staff lack written guidance defining staff roles and
                   responsibilities for processing complaints
                   CMS staff. Staff from 8 of 10 CMS regional offices reported that they
                   have not received written guidance defining their responsibilities with
                   respect to hotline complaints. These staff told us they believed that
                   written guidance would improve their work and would ensure consistent
                   processes across regions. Staff from one regional office remarked, “It’s
                   hard to determine exactly what we’re supposed to do. It’s not all cut
                   and dried.” Staff from the other two CMS regional offices told us that
                   the guidance they were following had been developed by their regional
                   offices as a standard operating procedure; it was not established or
                   disseminated by the CMS central office.

                   Staff from only three CMS regional offices reported receiving training in
                   handling complaints. These individuals reported that the training was
                   conducted by their predecessors or other regional staff. Absent written
                   guidance and training, many regional staff reported relying on their
                   colleagues in other regions for direction and advice. As staff from one
                   regional office stated, a typical interaction with a colleague in another
                   region might be “to discuss how a particular complaint should be
                   handled, since the procedures to resolve [complaints] are not set in
                   stone.”

                   Regional staff mentioned specific content areas that should be covered
                   in the written guidance, such as how to determine to which line of
                   business (e.g., Medicare Parts A, B, C, or D, or Medicaid) a complaint
                   refers and how to transfer complaints to other contractors when they
                   are misassigned or require handling by a program integrity contractor.
                   Although staff from all 10 CMS regional offices reported having a
                   contact list for contractors, they reported that these lists were
                   self-developed and not national in scope. Without written guidance, it is
                   difficult for CMS regional staff to assign complaints to the correct
                   contractor.
                   Contractor staff. Nearly all contractors identified the Program Integrity
                   Manual and their internally developed policies and procedures as
                   sources of written guidance. However, one-third of contractors reported
                   that further guidance on contractor responsibilities could improve their
                   operations. For example, staff from one contractor stated, “We are
                   unsure about all of our responsibilities. We would like to know what
                   CMS explicitly expects us to do.” Staff from another contractor
                   remarked, “[We would like] procedures on how CMS would like to see


 OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    12
                                                                           Report Template Update: 04-03-08




                  complaints handled, to ensure we are in compliance with what CMS
                  wants.” Staff from two CMS regional offices echoed the need for clearer
                  guidance to contractors.
                  Challenges with CMS’s information system hinder complaint processing
                  Staff from each of the 10 CMS regional offices and staff from 15 of the
                  24 contractors responded that they have encountered challenges
                  working with CMS’s information system. Those most frequently
                  mentioned were the inability to track the status of the complaint and
                  the inability to determine which contractor is assigned to the complaint,
                  as a complaint can be transferred from one contractor to another. This
                  affects the ability of CMS and contractor staff to determine what work
                  has been done on the complaint and the status of any transfers of the
                  complaint to another contractor. As staff from one contractor
                  summarized, “We need to be able to know which complaints are actually
                  assigned to us and what the status is of each complaint.” Also, when a
                  complaint involves more than one provider type (e.g., a physician and a
                  DME provider), the information system is unable to indicate that more
                  than one contractor is assigned.

                  We encountered similar challenges when attempting to identify which
                  contractors had been assigned to the sampled complaints. When we
                  selected the sample of complaints for review in April 2009, CMS’s
                  information system identified no contractor for 24 percent of the sample.
                  We used other information in the system to attempt to identify the
                  assigned contractor, but for 13 percent of the sampled complaints we
                  were unable to do so.

                  Contractors reported that they do not use the information system to
                  track activities on complaints during their review of allegations; rather,
                  they use their internal databases for this purpose. Staff from six
                  contractors reported that the CMS information system has inadequate
                  fields to store information.

                  Staff from four regional CMS offices reported maintaining a record of
                  hotline complaints (e.g., an Excel spreadsheet) separate from CMS’s
                  information system. These staff reported using such a record for a
                  variety of purposes, such as tracking hotline complaint numbers, dates
                  of contractor assignment, and dates that hardcopy documentation
                  arrives in the regional office and is sent to the contractor. Staff from
                  one CMS regional office stated that the information system needs to be
                  changed so that for each complaint, it would track which contractor took



OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    13
                                                                               Report Template Update: 04-03-08




F   I N D I N G        S


                      action, when the action occurred, and why the action was taken, so that
                      staff will not have to maintain separate records for these purposes.




    OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    14
                                                                           Report Template Update: 04-03-08




   R E C O M M E N D A T I O N S



                  CMS widely publicizes the 1-800-HHS-TIPS hotline as an avenue that
                  individuals may use to provide information that may assist in
                  combating fraud, waste, or abuse in Federal health care programs.
                  Health care fraud is estimated to be in the billions of dollars each year.
                  HHS emphasizes that Medicare beneficiaries are the front line of
                  defense in detecting Medicare fraud because they have firsthand
                  knowledge of the health care services they have received.

                  At least 1 year after receiving complaints through the 1-800-HHS-TIPS
                  hotline, CMS had resolved the majority of them, but 12 percent
                  remained unresolved. Long timeframes and inefficient processes delay
                  starting work on complaints. Additionally, lack of guidance and an
                  inadequate information system hinder complaint processing.

                  When researched and resolved, hotline complaints can lead to
                  recovering overpayments and identifying fraud. Therefore, it is
                  important for CMS to have a clear and consistent approach in place to
                  process hotline complaints.

                  To address these findings, we recommend that CMS:
                  Issue written guidance for processing hotline complaints
                  CMS should issue guidance defining the roles and responsibilities of
                  CMS and contractor staff and timeframes for assigning, researching,
                  and resolving complaints. If applicable, CMS may need to amend
                  appropriate contracts to reflect any new contractor requirements,
                  responsibilities, and/or timeframes. As part of the guidance, CMS
                  should create and maintain a national contact list of contractors,
                  including staff names, contact information, and contract numbers
                  associated with each contractor. Such a list would assist CMS and
                  contractor staff in accurately assigning and transferring complaints to
                  contractors.
                  Upgrade its information system for processing hotline complaints
                  CMS should ensure that its information system tracks user activity on
                  each complaint and that the system can handle complaints that have
                  multiple provider types and contractors. It should alert CMS when
                  complaints have not been assigned. CMS should establish an electronic
                  method to deliver hardcopy documents submitted by complainants so
                  they are received at the same time as the complaints.




OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    15
                                                                               Report Template Update: 04-03-08


R   E C O        M M E N D A T                I O N     S




                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      In its written comments on the draft report, CMS concurred with our
                      recommendations. In response to our first recommendation, CMS
                      stated that it will create written guidance that defines the specific roles
                      and responsibilities for CMS and its contractor staff to achieve greater
                      clarity in administration of its database (i.e., its information system).
                      Where they are not already established, CMS will establish timeframes
                      for assigning, researching, and resolving complaints. CMS stated that
                      it is revising its national contractor list to include contact names and
                      contract numbers associated with the contractors. As appropriate, CMS
                      will amend contracts to reflect any new contractor requirements,
                      responsibilities, or timeframes. In response to our second
                      recommendation, CMS stated that it is upgrading and updating the
                      database with the following features: auditing mechanisms to track
                      user activity, contractor assignments, and status of complaints; the
                      ability to handle complaints that have multiple provider types and
                      contractors; and the capacity to alert CMS when complaints have not
                      been assigned. CMS stated that it will work with OIG to establish an
                      electronic method to deliver hardcopy evidence received from
                      complainants along with the electronic complaint. We did not make any
                      changes to the report based on CMS’s comments. The full text of CMS’s
                      comments on the draft report can be found in Appendix C.




    OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    16
                                                                                          Report Template Update: 04-03-08




            A P P E N D I X                         ~        A

                                Flowchart of Processing of Complaints Received Through the
                                1-800-HHS-TIPS Hotline and Referred to the Centers for
                                Medicare & Medicaid Services*


                                      Complainant calls or writes to the hotline; OIG
                                    determines whether the issue rises to the level of a
                                   complaint; if it does, information is entered into OIG
                                      hotline database; OIG analyst reviews database
                                     information and generates a cover sheet for each
                                                          complaint




                                   Concurrently, OIG mails to CMS central office the
                                   complaint cover sheet and hardcopy documentation
                                    packages and sends an electronic file of complaint
                                              information to CMS IT staff




                                                                                            Electronic
                    Hardcopy                                             CMS central office IT staff upload file to CMS
                                                                            database, and complaints are electronically
   CMS central office staff sort documents                              assigned to CMS regional offices; regional office
     and mail to regional office staff**                                staff and contractors are electronically notified of
                                                                                         new complaints




   Regional office staff sort documents and                               Contractor staff self-assign complaints in their
   mail to appropriate contractor and assign                            jurisdiction; regional office staff assign remaining
    remaining complaints to contractors**                                                    complaints




                                          Contractor staff research and resolve
                                           complaints; notify complainants of
                                             resolution; update status of the
                                            complaints in the CMS database




*CMS.
**Sorting and mailing often occur after electronic notice.

Source: Office of Inspector General (OIG) interviews, 2009.




        OEI-07-09-00020         CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                         17
                                                                                                    Report Template Update: 04-03-08




             A P P E N D I X                             ~         B

                                    Table B-1: Point Estimates and Confidence Intervals


                                                                                      Sample            Point                     95-Percent
Statistic
                                                                                        Size         Estimate             Confidence Interval

Percentage of complaints not resolved by the Centers for Medicare
                                                                                           120          12.5%                    7.8%–19.5%
& Medicaid Services (CMS)

Percentage of complaints resolved by CMS                                                   120          87.5%                   80.5%–92.2%

Percentage of complaints with allegations researched and no problems
                                                                                           120          31.7%                   24.2%–40.2%
found

Percentage of complaints confirmed as services billed in error                             120          31.7%                   24.2%–40.2%

Percentage of complaints confirmed as illegal activity                                     120          10.8%                    6.5%–17.5%

Percentage of complaints with allegations involving services with claim
paid amounts of less than $100; complaints closed and retained for                         120            5.8%                   2.9%–11.5%
provider tracking

Percentage of complaints with insufficient allegation information;
                                                                                           120            5.0%                   2.3%–10.5%
complaints closed with no action


Percentage of complaints referred to another agency                                        120            2.5%                    0.8%–7.2%


Average number of days between the date that complaints were
uploaded to CMS’s information system and the date that contractors                         117     163.2 days          121.2 days–205.3 days
reported starting work on them

Percentage of complaints that contractors were unaware had been
                                                                                           120          21.7%                   15.4%–29.7%
assigned to them

Percentage of complaints on which contractors started work the same
                                                                                           117          58.1%                   49.3%–66.5%
day to 30 days after CMS uploaded them to its information system

Percentage of complaints on which contractors started work between
31 days and 120 days after CMS uploaded them to its information                            117          12.8%                    8.0%–19.9%
system

Percentage of complaints on which contractors started work more than
                                                                                           117          29.1%                   21.8%–37.6%
120 days after CMS uploaded them to its information system

Source: Office of Inspector General (OIG) analysis of simple random sample of 120 complaints forwarded from OIG to CMS, 2010.




         OEI-07-09-00020            CMS’S PROCESSING     OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                               18
        A P PEN D                     x               c

AGENCY COMMENTS




            DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers tor Medicare & Medicaid Services


                                                                                    Administrator
                                                                                    Washington. DC 20201




                         JAN 1 9 2011
        DATE:

        TO:            Daniel R. Levinson
                       Inspector General

        FROM.:         Donald M. Berwick, M.D.
                                                    /S/
                       Administrator

         SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "eMS' Processing of
                    Complaints Received Through the I-SOO-HHS-TIPS Hotline" (OEl-07-09-00020)


         The Centers for Medicare & Medicaid Services (eMS) appreciates the opportunity to review and
         comment on the Office of Inspector General (orG) draft report entitled "eMS' Processing of
         Complaints Received through the I-SOO-HRS-TIPS Hotline." The purpose of this report was to
         evaluate complaints received through the 1-800-HHS-TIPS Hotline, which individuals may llse
         to provide infonnation that may assist in combating fraud, waste, and abuse in the Department of
         Health and Human Services programs (Le., Medicare, Medicaid, Head Start and child support
         enforcement).

         The eMS takes complaints received from the 1-800-HHS-TJPS Hotline and from other sources
         seriously. These complaints play an important role in helping eMS and OIG in reducing and
         fighting fraud, waste, and abuse in the Medicare Program. Some complaints lead to new
         investigations and/or are incorporated into existing investigations. These complaints are also
         used to support revocation. deactivation, and/or suspension actions taken against providers and
         suppliers.

         The report accurately reflects the current process by which eMS and its contractors handle these
         referrals and in identifying the areas where improvement is needed. CMS has already begun
         working to update, standardize, and improve the current internal handling and oversight
         monitoring procedures to address a number of the concerns expressed in the report. Additional
         system changes are in development that will allow more effective screening, tracking of user
         activity, contractor assignments, and complaint status. We are working with OIG on many of
         these changes.

         We appreciate the orG's efforts in working with eMS to assist in the complaints process. Our
         response to each orthe 010 recommendations follows.




    OEI·07·09·00020       CMS's PROCESSING OF COMPLAINTS RECEIVED THROUGH 1·800·HHS·TlPS                                       19
                                                                               Report Template Update: 04-03-08




A   P   P E N D       I X     ~      C




    OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    20
                                                                           Report Template Update: 04-03-08




   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Deborah K. Walden, Deputy Regional
                  Inspector General.

                  Tricia Fields served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Kansas City regional
                  office who contributed to the report include LCDR Mike Garner and
                  Dennis Tharp; central office staff who contributed include Robert
                  Gibbons, Scott Manley, Megan Ruhnke, and Arianne Spaccarelli.




OEI-07-09-00020   CMS’S PROCESSING   OF   COMPLAINTS RECEIVED THROUGH 1-800-HHS-TIPS                    21
                                                                      Report Template Update: 04-03-08




                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
